Case: 20-3372

Document: 9-2

Filed: 04/13/2021

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312)435-5850
www.ca 7.u scon rts.gov

CERTIFIED COPY
PLRA C.R. 3(b) FINAL ORDER
April 13, 2021
BRALEN LAMAR JORDAN,
Plaintiff - Appellant
No. 20-3372

of
CourVd£$ftpe
Seventh

v.
C. RIVERS, et al.,
Defendants - Appellees

Originating Case Information:
District Court No: 3:20-cv-50297
Northern District of Illinois, Western Division
District Judge Iain D. Johnston
On March 12, 2021, this court issued an order directing the appellant to show cause as to
why this appeal should not be dismissed for failure to tender the PLRA memorandum. As
of this date, the appellant has neither paid the docketing fee nor filed a response explaining
his inability to do so. Accordingly,
IT IS ORDERED that this appeal is DISMISSED for failure to pay the required docketing
fee pursuant to Circuit Rule 3(b).
IT IS FURTHER ORDERED that the appellant pay the appellate fee of $505.00 to the clerk
of the district court. The clerk of the district court shall collect the appellate fees from the
prisoner's trust fund account using the mechanism of Section 1915(b). Newlin v. Helman, 123
F.3d 429, 433 (7th Cir. 1977).

form name: c7_PLRA_RSC_CR3b_Final(form ID: 154)

Case: 3:20-cv-50297 Document #: 24 Filed: 11/12/20 Page 1 of 6 PagelD #:194

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
WESTERN DIVISION
Bralen Lamar Jordan (22702-009),
Plaintiff,
v.
C. Rivers, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

Case No. 20 C 50297
Hon. Iain D. Johnston

ORDER
Plaintiffs amended complaint [20] does not state a valid federal claim and is dismissed.
See 28 U.S.C. § 1915A. The dismissal of this case is Plaintiffs third dismissal under 28 U.S.C.
§ 1915(g). Plaintiffs motion to amend his complaint piecemeal [23] is stricken for the reasons
stated in the October 14, 2020 order. Any other pending motions are denied as moot. This case is
closed. Final judgment shall enter.
STATEMENT
Plaintiffs amended complaint is before the Court. The Court again conducts its initial
review pursuant to 28 U.S.C. § 1915A, which requires courts to screen complaints filed by
prisoners to ensure they state a valid claim against parties not immune from suit. See Jones v. Bock,
549 U.S. 199, 214 (2007); Turley v. Rednour, 729 F.3d 645, 649 (7th Cir. 2013). As explained in
previous orders, a complaint must “give the defendant fair notice of what the claim is and the
grounds upon which it rests” and provide sufficient facts “to raise a right to relief above the
speculative level.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007); Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009). On initial review, courts “accept the well-pleaded facts in the complaint as
true,” Alam v. Miller Brewing Co., 709 F.3d 662, 665-66 (7th Cir. 2013), and construe pro se
complaints liberally. See Erickson v. Pardus, 551 U.S. 89, 94 (2007) (per curiam). The Court,
however, properly considers both the complaint and other public records in reviewing the
complaint. See Olson v. Champaign County, III., 784 F.3d 1093, 1097 n.l (7th Cir. 2015) (“[W]e
may take judicial notice of public records not attached to the complaint in ruling on a motion to
dismiss under Rule 12(b)(6).”) Here, there are many docket entries that undermine Plaintiffs
alleged claims.
As in the original complaint, Plaintiffs claims are somewhat difficult to parse. It is
apparent, however, that Plaintiff believes he is receiving deficient medical care at USP Thomson
for several of his chronic medical conditions, including diabetes, hypertension, and back pain.
Plaintiff seeks to hold National Inmate Appeal Administrator Ian Connors, Thomson Health
1

Case: 3:20-cv-50297 Document#: 24 Filed: 11/12/20 Page 2 of 6 PagelD #:195

Services Administrator Mrs. Pence, and Thomson Nurse Practitioner Teresa Ross responsible for
the alleged deficiencies. (Dkt. 20.)
First, Plaintiff alleges Defendant Pence was deliberately indifferent to his medical needs
because inmates with chronic medical conditions are generally seen by nurse practitioners rather
than doctors. (Dkt. 20, pg. 8.) Plaintiff also alleges his medical records contain false information
and that he needs insulin to treat his diabetes, aspirin for high blood pressure, and an x-ray for
“fractured muscles” in his back. (Id., pgs. 8-9.)
As for Defendant Ross, Plaintiff again alleges he should have received an appointment with
a doctor, rather than Ross who is a nurse practitioner. (Dkt. 20, pg. 10.) Plaintiff states he discussed
his diabetes lab work with Ross on July 30, 2020, and told her that he believed his A1C reading
was unusually high. (Id.) In response, Ross ordered a second reading on August 3, 2020. (Id.)
Plaintiff also told Ross he was having blurry vision and requested eye drops. (Id.) Ross told
Plaintiff she would look into ordering him eye drops. (Id., pg. 11.) Lastly, Plaintiff told Ross he
was having headaches after “the concussion of a hard fall in his cell.” (Id.) Ross told Plaintiff she
was unable to order him ibuprofen, but that he could order some from the commissary. (Id.)
Plaintiff, however, explained that he is indigent and cannot afford commissary items. (Id.)
Lastly, Plaintiff states he submitted grievances regarding his medical care to the Bureau of
Prisons General Counsel’s Office. (Dkt. 20, pg. 6.) Plaintiff does not clearly identify the issues he
was grieving, but it appears to have related primarily to his diabetes. (Id.) Defendant Ian Connors
reviewed Plaintiffs grievances but does not appear to have directed Thomson medical staff to
make any changes to Plaintiffs medical care on the basis of those grievances. (Id., pg. 7.) Based
on his review of the grievances, Plaintiff argues Connors was aware of his medical conditions but
did not remedy the problems Plaintiff identified. (Id., pgs. 6-7.)
Plaintiffs amended complaint suffers from a number of flaws and fails to state a claim for
relief. Initially, the amended complaint’s allegations indicate no personal involvement in
Plaintiffs medical care by Defendant Connors. Although Plaintiff alleges Connors reviewed
grievances about his medical treatment, “non-medical personnel not directly involved in an
inmate’s medical care are usually not liable for their review and/or denial of medical grievances.”
Ruiz v. Williams, 144 F.Supp.3d 1007, 1013 (N.D. Ill. 2015); see also Gevas v. Mitchell, 492 F.
App'x 654, 656 (7th Cir. 2012) (dismissing claim where “[Plaintiff] alleges no personal
involvement by the warden outside of the grievance process”); Owens v. Hinsley, 635 F.3d 950,
953 (7th Cir. 2011) (alleged mishandling of a prisoner’s grievances by persons who did not cause
or participate in underlying conduct does not state claim as there is no constitutional right to prison
grievance system). Moreover, “a defendant cannot be liable under Bivens on the basis of
respondeat superior or supervisor liability, rather there must be individual participation and
involvement by the defendant.” Arnett v. Webster, 658 F.3d 742, 757 (7th Cir. 2011).

2

Case: 3:20-cv-50297 Document#: 24 Filed: 11/12/20 Page 3 of 6 PagelD #:196

Defendant Connors was not involved with Plaintiffs medical treatment apart from the
grievance process. This involvement, however, is insufficient to maintain a claim against Connors
for deliberate indifference. George v. Smith, 507 F.3d 605, 609-10 (7th Cir. 2007) (affirming the
denial of a grievance “about a completed act of misconduct” is not sufficient involvement to
support a § 1983 claim against the supervisory official who denied the grievance). Id.
Plaintiffs allegations also fail to state a claim that Defendants Pence and Ross were
deliberately indifferent to his serious medical needs. Prison officials violate the Eighth
Amendment’s proscription against cruel and unusual punishment when they display ‘deliberate
indifference to serious medical needs of prisoners.’” Greeno v. Daley, 414 F.3d 645, 652 (7th Cir.
2005) (quoting Estelle v. Gamble, 429 U.S. 97, 104 (1976)). To state a claim based on deliberate
indifference, an inmate must first show that “his medical condition is ‘objectively, sufficiently
serious.” Id. (quoting Farmer v. Brennan, 511 U.S. 825, 834 (1994)). He must then show that
prison officials were deliberately indifferent to that condition. Id. (quoting Farmer, 511 U.S. at
834) (citation and quotation marks omitted).
Inmates, however, are not entitled to “unqualified access to healthcare,” Holloway v.
Delaware Cty. Sheriff, 700 F.3d 1063, 1073 (7th Cir. 2012), or the best care possible, Arnett, 658
F.3d at 754. Neither medical malpractice, nor negligence, nor even gross negligence rise to the
requisite culpable state of mind for deliberate indifference, which is akin to criminal recklessness.
See, e.g, Cesal v. Moats, 851 F.3d 714, 725 (7th Cir. 2017); Kingv. Kramer, 680 F.3d 1013, 1018
(7th Cir. 2012). Thus, a prison medical provider is not deliberately indifferent simply because she
offers a different course of treatment than the one requested by the inmate. Snipes v. DeTella, 95
F.3d586, 591 (7th Cir. 1996).
Plaintiffs allegations that he has been deprived of insulin, aspirin, and x-rays do not
indicate that Thomson medical staff have been deliberately indifferent to his medical conditions.
As noted in the order screening Plaintiffs first complaint, Plaintiff has a diabetes diagnosis, but
he has never been prescribed insulin and there has been “no clinical indication for insulin” while
Plaintiff has been housed at USP Thomson. See May 18, 2020 Motion (ECF #18), Jordan v.
Sawyor, No. 3:20-cv-50121, at 2 (N.D. Ill) (Johnston, J.); Amended Complaint (ECF #18), Jordan
v. Samuels, No. 3:20-cv-50211, at 10 (N.D. Ill.) (Johnston, J). Plaintiff has instead been prescribed
atorvastatin, lisinopril, and metformin for his diabetes. See May 18, 2020 Motion (ECF #18),
Jordan v. Sawyor, No. 3:20-cv-50121, at 4-5 (N.D. Ill) (Johnston, J.). Plaintiff was provided a sixmonth supply of these medications at least as of February 4, 2020, and he had a second medical
evaluation of his chronic conditions on July 30,2020. (Dkt. 17-1, pg. 16.) During the July 30, 2020
evaluation, Plaintiffs A1C levels were at 5.8%,1 indicating Plaintiff may have prediabetes, which
is generally treated with changes in diet, exercise, and medications such as metformin. (Id.) See
Prediabetes, Mayo Clinic, https://www.mayoclinic.org/diseases-conditions/prediabetes/diagnosis1 Plaintiff alleges this number was misreported in his medical records, but he offers no evidence to support this
assertion. Thus, to the extent Plaintiff may be attempting to state a claim that any defendant included false information
in his records, the Court discerns no foundation for that claim.

3

Case: 3:20-cv-50297 Document#: 24 Filed: 11/12/20 Page 5 of 6 PagelD #:198

would constitute a serious medical need. See, e.g., Gibson v. Ramsey, No. 99 C 5315, 2004 WL
407025, at *7 (N.D. Ill. Jan. 29, 2004) (plaintiff who woke up with back pain that was alleviated
by Tylenol did not have an objectively serious medical condition); Watson-El v. Wilson, No. 087036, 2010 WL 3732127 *13 (N.D. Ill. Sep. 15, 2010) (pain treated with over-the-counter
medication did not constitute a serious medical need). Consequently, Plaintiff fails to allege facts
sufficient to state a claim based on his headache.
Although it is clear Plaintiff believes he requires medical care beyond what he is already
receiving, mere disagreement with the medical treatment he has received while incarcerated does
not give rise to a claim for deliberate indifference. Johnson v. Doughty, 433 F.3d 1001, 1013 (7th
Cir. 2006). “[A]n inmate is not entitled to demand specific care.” Arnett v. Webster, 658 F.3d 742,
754 (7th Cir. 2011). Rather, inmates are entitled to “reasonable measures to meet a substantial risk
of serious harm.” Id. The care Plaintiff has received for his medical conditions at Thomson does
not appear to fall below this standard. In fact, quite the contrary. Plaintiffs submissions
demonstrate that Thomson’s medical staff regularly monitor his chronic conditions. Plaintiff s
description of his interactions with Defendant Ross, in particular, show that medical providers are
responsive to Plaintiffs medical needs and frequently provide him with the specific care he
requests. Consequently, Plaintiff fails to state a claim for deliberate indifference against Pence and
Ross.
For these reasons, Plaintiff may not proceed on his amended complaint. The Court
previously provided Plaintiff a chance to amend and outlined the basic requirements Plaintiff must
satisfy to state a claim, however, the present amended complaint still does not meet those
requirements. The Court has considered whether to allow additional amendment, Tate v. SCR Med.
Transp., 809 F.3d 343, 346 (7th Cir. 2015), but given the allegations in both the original and
amended complaint, Plaintiff appears to have stated his best case and further amendment would
be futile. Thus, the Court dismisses the amended complaint with prejudice. See Health Cost
Controls v. Skinner, 44 F.3d 535, 537 (7th Cir. 1995) (“[I]f a plaintiff fails to properly allege a
claim for relief brought under a federal statute, the case should be dismissed under Federal Rule
of Civil Procedure 12(b)(6)[.]”).
The dismissal of this case counts as a dismissal under 28 U.S.C. § 1915(g). This is
Plaintiffs third “strike,” following Jordan v. Connors, No. 6:20-cv-0164 (E.D. Ky) (Wilhoit, J.)
(dismissed for failure to state a claim on September 14, 2020), and Jordan v. Samuels, No. 3:20cv-50211 (N.D. Ill.) (Johnston, J.) (dismissed for failure to state a claim on November 2, 2020).
Going forward, Plaintiff may not file suit in federal court (except a petition for habeas corpus
relief) without prepaying the filing fee unless he “is under imminent danger of serious physical
injury.” 28 U.S.C. § 1915(g). Plaintiff also must disclose the fact that he has “struck out” under
§ 1915(g). See Ammons v. Gerlinger, 547 F.3d 724, 725 (7th Cir. 2008) (“A litigant who knows
that he has accumulated three or more frivolous suits or appeals must alert the court to that fact.”).
Plaintiffs failure to disclose this information when he files any new federal lawsuit will result in
immediate dismissal of the action with prejudice. M; see also Sloan v. Lesza, 181 F.3d 857, 8585

Case: 3:20-cv-50297 Document#: 24 Filed: 11/12/20 Page 6 of 6 PagelD #:199

59 (7th Cir. 1999) (explaining that “fraud” on the Court must “lead to immediate termination of
the suit”).
Final judgment will be entered. If Plaintiff wishes to appeal, he must file a notice of appeal
with this Court within thirty days of the entry of judgment. See Fed. R. App. P. 4(a)(1). If Plaintiff
appeals, he will be liable for the $505.00 appellate filing fee regardless of the appeal’s outcome.
See Evans v. III. Dep’t of Corr., 150 F.3d 810, 812 (7th Cir. 1998). If the appeal is found to be
non-meritorious, Plaintiff could be assessed another “strike” under § 1915(g). If Plaintiff seeks
leave to proceed in forma pauperis on appeal, he must file a motion for leave to proceed in forma
pauperis in this Court and state the issues he intends to raise on appeal. See Fed. R. App. P.
24(a)(1).
Plaintiff need not bring a motion to reconsider this Court’s ruling to preserve his appellate
rights. However, if Plaintiff wishes the Court to reconsider its judgment, he may file a motion
under Federal Rule of Civil Procedure 59(e) or 60(b). Any Rule 59(e) motion must be filed within
twenty-eight days of the entry of this judgment. See Fed. R. Civ. P. 59(e). The time to file a motion
pursuant to Rule 59(e) cannot be extended. See Fed. R. Civ. P. 6(b)(2). A timely Rule 59(e) motion
suspends the deadline for filing an appeal until the Rule 59(e) motion is ruled upon. See Fed. R.
App. P. 4(a)(4)(A)(iv). Any Rule 60(b) motion must be filed within a reasonable time and, if
seeking relief under Rule 60(b)(1), (2), or (3), must be filed no more than one year after entry of
the judgment or order. See Fed. R. Civ. P. 60(c)(1). The time to file a Rule 60(b) motion cannot be
extended. See Fed. R. Civ. P. 6(b)(2). A Rule 60(b) motion suspends the deadline for filing an
appeal until the Rule 60(b) motion is ruled upon only if the motion is filed within twenty-eight
days of the entry of judgment. Fed. R. App. P. 4(a)(4)(A)(vi).

Date: November 12, 2020

By:
Iain D. Johnston
United States District Judge

6

